ROB BONTA
Attorney General

State of California
DEPARTMENT OF JUSTICE
1515 CLAY STREET, 20TH FLOOR
P.O. BOX 70550
OAKLAND, CA 94612-0550

Public: (510) 879-1300
Telephone: (510) 879-0756
Facsimile: (510) 622-2270
E-Mail: Joshua.Klein@doj.ca.gov

May 6, 2021
By Electronic Filing
Hon. Scott S. Harris
Clerk of the Supreme Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE:

Joseph Biden, et al. v. Sierra Club, et al., No. 20-685
Request for extension of time

Dear Mr. Harris:
My office represents respondent the State of California in this case. The petition for
certiorari was filed on November 17, 2020. Responses to the petition are currently due on May
19, 2021. Pursuant to Rule 30.4, we respectfully request that the time in which to respond to the
petition be extended by 60 days, to July 18, 2021. Counsel for all other respondents join in the
request. Counsel for petitioners have authorized us to state that they consent to the request.
The petition in this case requested either plenary review or, in the alternative, that the
petition be held pending the Court’s disposition of Trump v. Sierra Club, No. 20-138 (certiorari
granted Oct. 19, 2020). The petition noted that each case involves questions about the legality of
the federal government’s transfers of funds appropriated in the 2019 Department of Defense
Appropriations Act to other accounts that would fund border wall construction along the U.S.Mexico border—and that each case implicated questions about the extent to which plaintiffs
have the ability to challenge such transfers. Pet. 3; see also id. at 33 (discussing “overlapping
issues presented . . . concerning whether the plaintiffs have a cognizable cause of action to
challenge military spending”).1
On February 1, 2021, the petitioners filed a motion in No. 20-138 to hold further briefing
in that case in abeyance and to remove that case from the February 2021 argument calendar, in
light of the President’s recent Executive Order requiring “an assessment of ‘the legality of the
1

Case No. 20-138 involves transfers, under Sections 8005 and 9002 of the Department of
Defense Appropriations Act, 2019, (2019 Act), Pub. L. No. 115-245, Div. A, Tit. VIII, 132 Stat.
2999, to an account under 10 U.S.C. § 284. This case involves transfers under 10 U.S.C. § 2808.

May 6, 2021
Page 2
funding and contracting methods used to construct the wall,’” and creation of a plan to
“‘redirect[] . . . funds concerning the southern border wall, as appropriate and consistent with
applicable law.’” Id. at 5. On February 3, the Court granted the motion. In light of that
development in No. 20-138, California moved to extend to May 19 the time for all respondents
to respond to the petition in this case, and the Court granted that motion on February 10.
On April 30, respondents filed a letter in Trump v. Sierra Club, No. 20-138, requesting
that that case remain in abeyance for the time being. The letter advised the Court that the Deputy
Secretary of Defense had that day “issued a memorandum directing the Secretary of the Army to
“take immediate action to cancel’” the construction projects at issue in that case and
“authoriz[ing] the Department of the Army to use any funds transferred for construction ‘to pay
contract termination costs.’” Letter in No. 20-138, at 1. Respondents stated that:
As a result of those actions, DoD has now made clear that it will not undertake
any further Section 284 border-barrier construction, and that any funds transferred
under Sections 8005 or 9002 and obligated for such construction instead will be
used for contract termination costs and the costs of certain safety measures.
Those changes in factual circumstances may ultimately have a bearing on the
Court’s review of the questions presented in this case. But because the
Secretaries have not yet completed the plan that is being developed in response to
the President’s Proclamation, and the completion of that process may affect the
proper disposition of this case, we respectfully submit that it would be premature
for this Court to take any action at this time.
Id. at 2.
In light of the respondents’ representations in No. 20-138, the current abeyed status of
that case, and the relationship between the issues in that case and those in this one, respondents
respectfully request that the due date for responses to the petition in No. 20-685 be extended by
60 days, to July 18, 2021. This Court has granted three previous requests for extensions of time
for the response.
Sincerely,
s/ Joshua A. Klein
JOSHUA A. KLEIN
Deputy Solicitor General
For

ROB BONTA
Attorney General

May 6, 2021
Page 3
cc:

Elizabeth B. Prelogar, Acting Solicitor General (counsel for petitioners)
Dror Ladin (counsel for respondents Sierra Club and So. Border Communities Coalition)
Eric R. Olson (counsel for respondent Colorado)
Robert Tadao Nakatsuji (counsel for respondent Hawaii)
Jeffrey Paul Dunlap (counsel for respondent Maryland)
Tania Maestas (counsel for respondent New Mexico)
Steven C. Wu (counsel for respondent New York)
Jona J. Maukonen (counsel for respondent Oregon)
Michelle Shane Kallen (counsel for respondent Virginia)
Gabe Johnson-Garp (counsel for respondent Wisconsin)

